V

■COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850
No. 20JAMES ALAN CLARK,
Petitioner,
v.
WENDY KRISTINE CLARK,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4745 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL ROTARY-SUte of KAttka

fl'.

RENEE J. QOS8

Ba My Oomm. Exp. September 5,2023

Notary Public

Affiant

40072

